   Semiannual Report
    to the Congress




Office of Inspector General

Railroad Retirement Board

October 1, 2007 to March 31, 2008
                       TABLE OF CONTENTS
INTRODUCTION

Railroad Retirement Board                                       1

Office of Inspector General                                     2

EXECUTIVE SUMMARY

Audit/Evaluation Activities                                     3

Investigative Activities                                        5

Investigative Accomplishments                                   7

OCTOBER 1, 2007 – MARCH 31, 2008 ACCOMPLISHMENTS

Office of Audit                                                 8
Opinion on the Financial Statements                             8
Report on Internal Control                                      9
Report on Compliance with Laws and Regulations                  10
Management and Performance Challenges Facing
the Railroad Retirement Board                                   10
Letter to Management                                            11
Statement of Concern: National Railroad Retirement Investment
  Trust Lack of Provision for Performance Audits                12
Compendium of Audit Recommendations Not
   Implemented as of January 22, 2008                           14

Management Decisions and Implementation                         15

Office of Investigations                                        16
Investigative Caseload Data                                     16

REPRESENTATIVE INVESTIGATIONS

Retirement/Survivor Benefit and
Representative Payee Investigations                             18
Disability Benefit Investigations                               22
Unemployment & Sickness Insurance Investigations                24
Civil Enforcement Results                                       25
Employee Misconduct                                             26
Railroad Employer Fraud                                         27
Hotline Calls                                                   28
Legislative & Regulatory Review                                 29
Outreach                                                        31


Railroad Retirement Board – Office of Inspector General
Appendices

(A) OIG Reports Issued                                    34
(B) Inspector General Issued Reports with
       Questioned Costs                                   35
    Inspector General Issued Reports with
       Recommendations that Funds Be Put to Better Use    36
(C) Report on Receivables, Waivers and Recoveries
       Office of Audit                                    37
       Office of Investigations                           38
(D) RRB Management Reports                                39
(E) Reporting Requirements                                44
(F) Acronyms                                              46
(G) Legal Citations                                       48




Railroad Retirement Board – Office of Inspector General
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       INTRODUCTION                                                      The RRB is an
                                                                         independent
       Railroad Retirement Board                                         agency in the
                                                                         executive branch
                                                                         of the federal
The Railroad Retirement Board (RRB) is an independent agency in          government.
the executive branch of the federal government. The Board consists
of three members who are appointed by the President of the United
States with the advice and consent of the Senate. One Board
member is appointed upon the recommendation of railroad
employers, another member is appointed upon the recommendation
of railroad labor organizations and the third, who is the Chairman, is
appointed to represent the public’s interest. Board Members’ terms
are five years in length and expire in staggered years.

The agency administers comprehensive retirement-survivor and
unemployment-sickness insurance benefit programs for the nation's
railroad workers and their families. These programs are codified
under the Railroad Retirement Act, 45 U.S.C. § 231, et. seq. and the
Railroad Unemployment Insurance Act, 45 U.S.C. § 351 et. seq.,
respectively. The RRB also has administrative responsibilities for
certain benefit payments under the Social Security Act and
administers Medicare Part B, the physician services aspect of the
Medicare program, for qualified railroad beneficiaries.                  During fiscal
                                                                         year 2007,
The agency’s central mission is to pay accurate and timely benefits.     RRB paid nearly
During fiscal year (FY) 2007, RRB paid nearly $9.7 billion in            $9.7 billion in
retirement and survivor benefits to approximately 600,000                retirement and
                                                                         survivor benefits
beneficiaries. RRB also paid $73 million in net unemployment and
                                                                         to approximately
sickness insurance benefits to almost 28,000 claimants during the        600,000
benefit year ending July 30, 2007. The Railroad Medicare Part B          beneficiaries.
carrier, Palmetto GBA, paid approximately $897 million in medical
insurance benefits for more than 496,000 beneficiaries.




Railroad Retirement Board – Office of Inspector General             1
Semiannual Report to the Congress October 1, 2007 – March 31, 2008


                                                                           The RRB
       Office of Inspector General                                         Inspector
                                                                           General is a
The Railroad Retirement Solvency Act of 1983 established the Office        Presidential
of Inspector General (OIG) at the RRB by naming the agency as “one         Appointee
of such establishments” identified under Section 2 of the Inspector        who serves
                                                                           as an
General Act of 1978, as amended. The Inspector General Act                 independent
Amendments of 1988, added the RRB to the list of covered agencies.         and
                                                                           objective
The RRB Inspector General is a Presidential Appointee who serves           voice to both
as an independent and objective voice to both the Board and the            the Board
                                                                           and the
Congress. It is the Inspector General’s responsibility to promote          Congress.
economy, efficiency and effectiveness in the RRB’s programs. To
that end, the OIG conducts audits/evaluations, management reviews,
inspections of RRB program operations and provides
recommendations for improvement to agency management. The OIG
also identifies and investigates cases of waste, fraud and abuse in
RRB programs. The OIG works closely with federal prosecutors and
makes the appropriate referrals for criminal prosecution, civil
prosecution or monetary recovery actions.

On December 26, 2007, President Bush signed the Consolidated
Appropriations Act, 2008, P.L. 110-161 which stated in pertinent part
“[T]hat funds made available under the heading in this Act, or
subsequent Department of Labor, Health and Human Services, and
Education, and Related Agencies Appropriations Acts, may be used
for any audit, investigation, or review of the Medicare program.” This     The OIG has
restored the OIG’s ability to conduct RRB Medicare oversight.              three
                                                                           operational
                                                                           components:
The OIG has three operational components: the immediate Office of          the immediate
the Inspector General, the Office of Audit and the Office of               Office of the
Investigations. The office conducts operations from several locations:     Inspector
the headquarters of the RRB in Chicago, Illinois, an investigative field   General, the
office in Philadelphia, Pennsylvania and domicile investigative offices    Office of Audit
                                                                           and the
in Arlington, Virginia and San Diego, California.                          Office of
                                                                           Investigations.
The health and welfare of our nation’s railroad workers and their
families rely on the economy, efficiency and effectiveness in the
RRB’s programs. It is the mission of the OIG to ensure these
qualities exist in RRB programs.



Railroad Retirement Board – Office of Inspector General              2
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       EXECUTIVE SUMMARY                                                    The Office of
                                                                            Audit conducts
       Audit/Evaluation Activities                                          financial,
                                                                            performance and
                                                                            compliance
The United States Railroad Retirement Board, Office of Inspector            audits.
General - Office of Audit (OA) conducts financial, performance and
compliance audits. During this reporting period, OA’s efforts were
primarily directed at fulfilling the financial audit and information
security evaluation requirements mandated by law. As resources
permit, audit staff will undertake other audits, evaluations and
monitoring activities that add value to agency operations.

Previous Congressional report language directed the OIG to perform
their financial statement audit in-house using OIG staff. OA conducts
the financial statement audit with technical assistance from
contracted actuarial specialists. Financial statement audits are
complex, extremely labor intensive and consume a large amount of
staff resources.

During the reporting period of October 1, 2007 through March 1,
2008, OA completed their audit of the Railroad Retirement Board’s
Fiscal Year 2007 Financial Statements as published in the agency’s
Annual Performance and Accountability Report. Auditors issued an
unqualified opinion on the financial statements reporting that the
principal financial statement presented fairly, in all material respects,
the financial position of the RRB for the fiscal years ended September
30, 2007 and 2006, and the financial condition of the railroad
retirement program as of January 1, 2007. The accompanying report
on internal control advised management that significant deficiencies
                                                                            OA issued
in program management and access controls make the agency’s
                                                                            an
information security program a continued source of internal control         unqualified
material weakness. The fact that the RRB does not have a                    opinion on
consistent theory under which it computes the railroad retirement           the agency’s
program fund balance for social insurance reporting was also cited as       FY 2007
a material weakness. OA did report some agency improvements in              Financial
financial reporting due to the implementation of previous OIG               Statements.
recommendations. Although the process has been strengthened, the
corrective action has not been in operation for a full fiscal year.
Accordingly, OA continues to cite financial reporting as an area of
significant deficiency in internal control pending a full year of


Railroad Retirement Board – Office of Inspector General                3
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



experience. In total, this report offered 25 recommendations for
corrective action. Management concurred with all recommendations
but is unable to implement one.

In connection with the financial statement audit, OA also issued a
statement entitled “Management and Performance Challenges Facing
the Railroad Retirement Board”. This statement is prepared pursuant
to the Reports Consolidation Act of 2000 and the requirements of
Office of Management and Budget (OMB) Circular A-136. This
Circular requires IGs to identify the most serious management
challenges facing their parent agency and to briefly assess the
agency’s progress in addressing those challenges. OIG identified
information technology security, safeguarding privacy and
performance measurement as the most serious management
challenges.
                                                                       The OIG
On March 31, 2007, OA issued a Statement of Concern entitled           issued a
“National Railroad Retirement Investment Trust Lack of Provision for   Statement
Performance Audits”. This statement expressed the OIG’s concerns       of Concern
regarding the absence of performance audits and oversight of the       regarding
National Railroad Retirement Investment Trust (NRRIT).                 the National
                                                                       Railroad
                                                                       Retirement
Pursuant to a December 7, 2007 request from the United States
                                                                       Investment
House of Representatives’ Committee on Oversight and Government        Trust.
Reform, OA issued a compendium of OIG audit recommendations
issued after January 1, 2001 and not implemented by RRB
management as of January 22, 2008.

The FY 2007 financial statements audit as well as the March 31,
2007 Statement of Concern and the compendium are discussed in
further detail on pages 8 through 14.




Railroad Retirement Board – Office of Inspector General           4
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Investigative Activities                                              Public Law
                                                                             110-161
The Office of Investigations (OI) focuses its efforts on identifying,        restored OIG’s
investigating and presenting cases for prosecution concerning fraud          ability to
in RRB benefit programs. OI conducts investigations throughout the           investigate
United States relating to the fraudulent receipt of RRB sickness,            RRB Medicare
unemployment, disability, retirement or RRB Medicare benefits. OI            fraud cases.
investigates railroad employers and unions when there is an
indication that they have submitted false reports to the RRB. OI also
investigates allegations of misconduct by RRB employees.
Investigative efforts can result in criminal convictions, civil penalties,
administrative sanctions and/or the recovery of program benefit
funds.

As previously discussed, P.L.110-161 restored OI’s ability to
                                                                             OI is actively
investigate allegations of fraud in the RRB Medicare program. OI is
                                                                             investigating 11
actively investigating 11 RRB Medicare fraud cases and has an                RRB Medicare
additional 38 referrals under review. All of these cases are being           fraud cases and
worked jointly with the Department of Health and Human Services,             has an additional
the Office of Personal Management or other agencies responsible for          38 referrals
investigating healthcare fraud.                                              under review.

During this reporting period, OI achieved 24 convictions, 27
indictments and/or informations, 13 civil judgements and almost $2.5
million in monetary accomplishments. OI also had six arrests and 61
referrals to the Department of Justice. They also had $755,960 in
investigative recoveries from completed cases. Investigative
recoveries are settled fraud amounts that can be recouped through
administrative recovery action by the RRB.

Retirement/Survivor benefit fraud investigations typically involve           During this
either: (1) the failure to report disqualifying information, such as         reporting period,
continued employment; (2) the failure to report the death of an              OI achieved 24
annuitant; or (3) the failure to report a surviving spouse’s remarriage.     convictions, 27
During this reporting period, RRB Special Agents have investigated           indictments and/or
diverse fraud schemes such as: (1) a survivor annuitant’s failure to         informations, 13
report a subsequent marriage; (2) an annuitant’s spouse failure to           civil judgements
                                                                             and almost $2.5
report the annuitant’s death; (3) an annuitant’s representative payee
                                                                             million in monetary
stealing RRB annuity checks for his own personal use while not               accomplishments.
paying for the annuitant’s nursing home care; (4) an annuitant’s


Railroad Retirement Board – Office of Inspector General                 5
Semiannual Report to the Congress October 1, 2007 – March 31, 2008


                                                                           During this
daughter committing identity theft to cash RRB checks; and (5) two         reporting
separate cases where the annuitants’ children failed to report the         period, the
                                                                           RRB collected
annuitants’ death.
                                                                           nearly
                                                                           $800,000 as a
Disability benefit investigations often involve larger financial amounts   result of
and more sophisticated schemes. During this reporting period RRB           criminal and
Special Agents investigated a variety of disability fraud schemes,         civil
                                                                           judgements
such as: (1) a Railroad employee posing as his brother for twenty-five
                                                                           related to OI
years in order to hide his felony convictions; (2) an annuitant            investigations.
concealing his corporate ownership and self-employment; and (3) an
annuitant failing to report his wages in excess of the allowable
amount.

Unemployment Insurance (UI) and Sickness Insurance (SI) benefit
fraud typically involves claimants applying for and receiving benefits
while failing to report their wages from an employer. A majority of
these cases are referred to the OIG from the RRB’s Disability,
Sickness and Unemployment Benefits Division.

RRB Special Agents also investigate allegations of misconduct by
RRB employees. During this reporting period, an RRB employee was
suspended for accessing and viewing pornographic images on his
work computer during duty hours.

The OIG has authority to investigate allegations of fraudulent activity
by railroad employers and unions when there is an indication that
they have submitted false reports to the RRB. During this reporting
period, RRB Special Agents investigated a railroad employer who
fraudulently reported his employees’ compensation to the Social
Security Administration instead of the RRB and a railroad employee
who utilized false documentation to gain employment.

From October 1, 2007 through March 31, 2008, the RRB collected
nearly $800,000 as a result of criminal and civil judgements related to
OI investigations.

A sample of OI fraud cases closed during this reporting period are
discussed in more detail on pages 18 to 27.




Railroad Retirement Board – Office of Inspector General              6
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Investigative Accomplishments

                       Action                   October 1, 2007 –
                                                 March 31, 2008

         Convictions                                      24

         Civil Judgements                                 13

         Indictments/Informations                         27

         Investigative Recoveries*                    $755,960

         Restitution and Fines                        $949,202

         Civil Damages and Penalties                  $659,650
         Potential Economic Loss
                                                      $131,353
         Prevented (PELP)
         Disciplinary/Administrative
                                                           1
         Actions
         Civil Complaints                                  7

         Criminal Complaints                               3

         Arrests                                           6

         Department of Justice Referrals                  61

*Investigative recoveries are fraud amounts that can be recouped through
administrative recovery action by the RRB.




Railroad Retirement Board – Office of Inspector General                    7
Semiannual Report to the Congress October 1, 2007 – March 31, 2008


                                                                                            OA also
        OCTOBER 1, 2007 THROUGH                                                             supports the
        MARCH 31, 2008 ACCOMPLISHMENTS                                                      OIG’s mission
                                                                                            by identifying
                                                                                            and
        Office of Audit                                                                     developing
                                                                                            issues of
                                                                                            concern.
OA conducts financial, performance and compliance audits and
evaluations. OA also supports the OIG’s mission by identifying and
developing issues of concern. OA, through the Inspector General,
works to inform the Board Members and Congress of RRB programs
and operations that require corrective action and makes
recommendations for improvement. During this reporting period, OA
efforts have been directed primarily to fulfilling the financial audit and
information security evaluation requirements mandated by law. OA
also developed a Statement of Concern expressing the OIG’s
concerns about the sufficiency of oversight for the NRRIT.                                  OA works to
                                                                                            inform the Board
                                                                                            Members and
        Opinion on the Financial Statements –                                               Congress of RRB
                                                                                            programs and
        November 15, 2007 1                                                                 operations that
                                                                                            require corrective
                                                                                            action and makes
During the reporting period of October 1, 2007 through March 31,                            recommendations
2008, OA completed its audit of the Railroad Retirement Board’s                             for improvement.
comparative financial statements for the fiscal years ended
September 30, 2007 and 2006. The OIG offered an unqualified
opinion on the financial statements, concluding that the financial
statements, including accompanying notes presented fairly, in all
material respects, in conformity with U.S. generally accepted
accounting principles, the financial position of the RRB, its
consolidated net cost of operations and changes in net position, and
combined budgetary resources as of and for the fiscal years ended
September 30, 2007, and 2006; and the financial condition of the
Railroad Retirement program as of January 1, 2007 and 2006.


1
 The OIG released its opinions on the RRB’s FY 2007 financial statements on
November 15, 2007, for publication in the agency’s annual performance and
accountability report. However, the auditor’s opinion is dated as of November 2, 2007,
except for matters relating to the fair market value of the net assets of the NRRIT as to
which the date is November 15, 2007.


Railroad Retirement Board – Office of Inspector General                              8
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



In addition, OA’s opinion alerted readers to the magnitude of assets
                                                                                          In planning and
held and invested by the NRRIT which represented 86% of agency                            performing the
assets and 24% of financing sources for FY 2007. The report also                          audit of the
reminded readers of the Railroad Retirement program’s dependence                          agency’s
on the Social Security program for financing which amounted to about                      financial
26% during FY 2007.                                                                       statements, OA
                                                                                          considered the
                                                                                          RRB’s internal
        Report on Internal Control                                                        control over
                                                                                          financial
In conjunction with its opinion on the RRB’s financial statements, OA                     reporting and
                                                                                          compliance.
reported on internal control. In planning and performing the audit of
the agency’s financial statements, OA considered the RRB’s internal
control over financial reporting and compliance. OA did this to
determine its procedures for auditing the financial statements and to
comply with OMB audit guidance, not to express an opinion on
internal control. OA considered internal control during FY 2007 and
concluded that RRB management had completed action to address
previously reported weaknesses in controls over performance
measurement, the actuarial projection process and compliance with
the Prompt Payment Act. However, agency efforts to correct
weaknesses in its information security program were not yet complete
and the previously reported material weakness continues to exist.
OA continued to identify financial reporting as an area of significant
deficiency because recently implemented controls have not been in
place and operating for a period sufficient to permit evaluation.

OA also identified a material weakness, not previously reported, in
the method used to develop the social insurance fund balance for the
Railroad Retirement program. 2 OA cited the RRB for inconsistencies
in the method used to compute its social insurance fund balance
which undermine management’s assertion of best estimate and make
comparative presentation less meaningful.
2
 A material weakness is a significant deficiency, or combination of significant
deficiencies, that results in more than a remote likelihood that a material
misstatement of the financial statements will not be prevented or detected. A
significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the entity’s ability to initiate, authorize, record, process or
report financial data reliably in accordance with generally accepted accounting
principles (GAAP) such that there is more than a remote likelihood that a
misstatement of the entity’s financial statements that is more than inconsequential


Railroad Retirement Board – Office of Inspector General                              9
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



        Report on Compliance with Laws and
                                                                                     OA’s tests of
        Regulations                                                                  compliance
                                                                                     with selected
OA’s audit of the RRB’s financial statements included tests of                       provisions of
compliance with selected provisions of laws and regulations,                         laws and
including laws governing the use of budget authority, and other                      regulations
laws and regulations that could have a direct and material effect on                 disclosed no
the RRB’s basic financial statements.                                                instances of
                                                                                     non-
OA’s tests of compliance with selected provisions of laws and                        compliance
regulations disclosed no instances of non-compliance that are                        that are
                                                                                     reportable
reportable under U.S. generally accepted government auditing
                                                                                     under U.S.
standards or OMB guidance. However, the objective of OA’s audit                      generally
was not to provide an opinion on overall compliance with laws and                    accepted
regulations and they did not offer an opinion on such compliance.                    government
                                                                                     auditing
        Management and Performance Challenges                                        standards or
                                                                                     OMB
        Facing the Railroad Retirement Board                                         guidance.

OA’s statement entitled “Management and Performance Challenges
Facing the Railroad Retirement Board” is published in RRB’s
Performance and Accountability Report. OIG identified information
technology security, safeguarding privacy and performance
measurement as the most serious management challenges.
                                                                                     OIG identified
Information security means protecting information and information                    information
systems in order to provide confidentiality, integrity and availability.             technology
The RRB is still in the process of developing an information security                security,
management program that complies with the requirements of the                        safeguarding
Federal Information Security Management Act (FISMA) and the                          privacy and
                                                                                     performance
National Institute of Standards and Technology. Although the agency                  measurement
is making progress, this is a significant undertaking and can be                     as the most
expected to present a challenge during the coming years.                             serious
                                                                                     management
                                                                                     challenges.
will not be prevented or detected. A control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal
course of performing their assigned functions, to prevent or detect misstatements
on a timely basis.



Railroad Retirement Board – Office of Inspector General                         10
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



The RRB collects and retains sensitive personally identifiable
                                                                                     In anticipation
information about its beneficiaries and employees which needs to be                  of expanded
safeguarded from unauthorized disclosure. During FY 2007, OA                         OMB
identified weaknesses in this arena. The agency responded                            oversight, OA
positively to OA’s recommendations and is working on                                 cites
implementation. However, OA continues to identify safeguarding                       performance
privacy as a management challenge.                                                   reporting as a
                                                                                     management
In anticipation of expanded OMB oversight, OA cites performance                      challenge.
reporting as a management challenge. RRB is working towards
strengthening internal controls over the performance measurement
and reporting process.


       Letter to Management – March 6, 2008
During the financial statement audit, OA identified other matters
related to internal control that were not consider to be material
weaknesses or significant deficiencies which were reported to RRB
management in a separate letter. The March 6, 2008 Letter to
Management offered 25 recommendations to strengthen internal                         The March 6, 2008
control over financial reporting by improving the underlying processes               Letter to
                                                                                     Management
of voucher preparation, documentation maintenance and the
                                                                                     offered 25
statement review and approval process.                                               recommendations
                                                                                     to strengthen
In addition, auditors recommended that management work to                            internal control.
eliminate the use of outdated information about the value of NRRIT
held assets in the RRB’s quarterly financial reports. Since the NRRIT
is a non-governmental entity independent of the RRB 3 , the RRB must
rely on the NRRIT to provide monthly information which allows them
to calculate the change in the NRRIT's net asset value. This monthly
information is provided pursuant to a memorandum of understanding
(MOU) between the RRB, NRRIT, OMB and the Department of the
Treasury. This MOU permits the NRRIT to report its balances on a
one month delay. For example, for the period ending June 30, 2007,
the RRB reported NRRIT net assets as valued on May 31, 2007,
which resulted in an overstatement of the RRB’s assets of about

3
  Under provisions of the Railroad Retirement Survivors’ Improvement Act (RRSIA),
the NRRIT is not a department, agency, or instrumentality of the Government of the
United States and shall not be subject to Title 31, United States Code.


Railroad Retirement Board – Office of Inspector General                        11
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



$200,000,000. The Department of the Treasury had previously
expressed concerns regarding timely and consistent reporting of
NRRIT balances for interim periods and has asked the RRB to place
more emphasis on eliminating the one month delay.

Specifically, OA recommended that the RRB:

    •work with the NRRIT to obtain reports of NRRIT net assets
    within timeframes that will support the RRB’s interim financial
    reporting responsibilities;
    •include footnote disclosure for the use of any out-of-date
    information; and
    •advise recipients of interim financial reports prepared with out-of-
    date information of the correct amount when it becomes available
    and the related discrepancy.

RRB management contacted NRRIT regarding elimination of the one
month delay and NRRIT responded that it was not possible to
eliminate this delay. However, RRB did agree to include footnotes
and provide up-to-date information when it becomes available.

OA appreciates the cooperation extended by the agency during the
financial statement audit and OA will continue to work with RRB to
monitor their progress and implementation of these
                                                                            At the end of
recommendations.                                                            FY 2007, the
                                                                            NRRIT
       Statement of Concern: National Railroad                              reported net
                                                                            assets of
       Retirement Investment Trust Lack of                                  $32.6 billion
       Provision for Performance Audits                                     representing
                                                                            approximately
                                                                            97% of the
The Railroad Retirement Survivor’s Improvement Act of 2001                  RRB’s net
(RRSIA) amended the Railroad Retirement Act (RRA) to create the             financial
National Railroad Retirement Investment Trust (NRRIT). The sole             position.
purpose of the NRRIT is to manage and invest railroad retirement
assets in a diversified investment portfolio similar to those of private
sector retirement plans. The NRRIT is a non-governmental entity
independent of the RRB and is administered by seven trustees. At
the end of FY 2007, the NRRIT reported net assets of $32.6 billion


Railroad Retirement Board – Office of Inspector General                12
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



representing approximately 97% of the RRB’s net financial position.
The OIG has concerns about the effectiveness of oversight for the         The OIG has
NRRIT.                                                                    concerns
                                                                          about the
The RRSIA only requires an annual audit of the NRRIT’s financial          effectiveness
statements. It also gave the RRB legal standing to bring a civil action   of oversight for
against the NRRIT, its Board of Trustees, its employees or agents if      the NRRIT.
the agency believes that the NRRIT is not in compliance with the
requirements of RRSIA. However, that authority is not supported by
an adequate oversight program. RRSIA did not require, or otherwise
provide for, audits of compliance with laws and regulations or
evaluation of management performance. As a result, no provision
has been made to provide RRB management with the information
necessary to determine whether any enforcement action is
necessary. The OIG is concerned that the financial audit process is
often mistakenly believed to be more comprehensive and to provide
more assurance than intended. Annual financial statement audits are
not designed to address all areas of potential risk that should be
included in a comprehensive oversight program and is not adequate
to support the RRB’s enforcement responsibility. Additionally,
because the NRRIT is not a publicly held company, it is not subject to
the requirements of the Sarbanes-Oxely Act of 2002, the standards
promulgated by the Public Company Accounting Oversight Board or
the authority of the Security and Exchange Commission.

The specific requirement for an annual financial audit and lack of        NRRIT oversight
provision for any other type of audit or oversight activity has been      is incomplete
interpreted by the OIG to exclude the NRRIT from the OIG’s audit          because RRSIA
and investigative responsibilities. NRRIT oversight is incomplete         did not require
because RRSIA did not require any oversight activity that directly        any oversight
supports the RRB’s enforcement authority. As noted above, the             activity that
NRRIT plays a critical role in the financing and future solvency of the   directly supports
Railroad Retirement program.                                              the RRB’s
                                                                          enforcement
                                                                          authority.
The OIG’s Statement of Concern observes that the similarly situated
Thrift Savings Plan, the retirement investment program for federal
employees and members of the uniformed services, is subject to
ongoing performance audits as mandated by law. Performance
audits can provide objective analysis to assist management and
those charged with governance such as the NRRIT’s Board of


Railroad Retirement Board – Office of Inspector General              13
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



Trustees, their managers and most importantly the RRB with detailed
                                                                          Pursuant to a
information to improve program performance and operations.                December 7, 2007
                                                                          request from the
       Compendium of Audit Recommendations                                United States
                                                                          House of
       Not Implemented as of January 22, 2008                             Representatives’
                                                                          Committee on
                                                                          Oversight and
Pursuant to a December 7, 2007 request from the United States
                                                                          Government
House of Representatives’ Committee on Oversight and Government           Reform, OA
Reform, OA issued a compendium of OIG audit recommendations               issued a
issued after January 1, 2001, and not implemented by RRB                  compendium of
management as of January 22, 2008. This compendium provided a             audit
                                                                          recommendations
description and status for:
                                                                          not implemented
                                                                          as of
       •176 recommendations issued in connection with OIG audits,         January 22, 2008.
       evaluations and inspections, as well as technical specialists
       under contract to the OIG;

       •eight recommendations which were offered as a result of
       high-level analysis and communicated in proposals urging
       RRB management to innovate through reinvention; and

       •two pending requests for legislative change that have been
       included in the OIG’s budget justification.




Railroad Retirement Board – Office of Inspector General              14
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Management Decisions and Implementation
                                                                           The OIG tracks
The OIG tracks the status of corrective actions for all audit/evaluation   the status of
recommendations. Office of Management and Budget Circular No. A-           corrective actions
50 (Revised) and the Inspector General Act Amendments of 1988              for all
require the reporting of management decisions and corrective actions       audit/evaluation
for all audit/evaluation recommendations.                                  recommendations.


         Management Decisions for Recommendations
 Requiring Management Decision on October 1, 2007              0
 Pending Management Decision for New
                                                               0
 Recommendations
 Management Decision on Previous Recommendations               0
 Recommendations Pending Management Decision on
                                                               0
 March 31, 2008




                        Corrective Actions
 Recommendations Requiring Action on
                                                             189
 October 1, 2007
 Recommendations Issued During Reporting Period               25
 Corrective Actions Completed During Reporting Period         52
 Recommendations Rejected During Reporting Period              2
 Final Actions Pending on March 31, 2008                     160




Railroad Retirement Board – Office of Inspector General              15
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Office of Investigations

       Investigative Caseload Data

During this semiannual reporting period, OI opened 103
investigations and closed 117 cases. The major referral sources for
the cases opened between October 1, 2007 and March 31, 2008 are
listed below:

        Source of Referral              Percentage
  RRB Headquarters                           49%
  Hotline                                    17%
  Other                                      17%
  RRB Field Offices                          8%
  Other Federal Agencies                     5%
  RRB Employees                              3%
  OIG Developed                              1%
                                                                        During this
                                                                        semiannual
To gather evidence and further investigations, OIG Special Agents       reporting
have a wide range of investigative tools including the Federal Grand    period, OI
                                                                        opened 103
Jury procedure and the Inspector General Subpoena. The following
                                                                        investigations
table summarizes OI’s use of these investigative tools from             and closed
October 1, 2007 through March 31, 2008.                                 117 cases.

                                    Number Served from
  Type of Subpoena Served           October 1, 2007 –
                                    March 31, 2008
  Inspector General Subpoena                   61
  Federal Grand Jury
                                               73
  Subpoena




Railroad Retirement Board – Office of Inspector General            16
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



OI’s current caseload totals 442 criminal matters, representing
approximately $11.5 million in fraud against the RRB. The potential
fraud losses by case type are listed below.

                               Number                     Potential
       Type of Case               of  Percentage            Fraud
                                Cases  of Cases            Losses
                                                                            OI’s current
          Disability              210         48%         $7,027,135
                                                                            caseload totals
  Unemployment/Sickness           82          19%         $507,793          442 criminal
                                                                            matters,
         Retirement               68          15%         $2,069,965        representing
                                                                            approximately
    Spouse/Dependent              24           5%         $537,458          $11.5 million in
                                                                            fraud against
            Other                 14           3%         $332,845          the RRB.
   Representative Payee           14           3%         $165,131
          Medicare                11           2%         $874,845*
     Railroad Employer             9           2%            $0**
         Employee                  5           1%          $35,907
           Threats                 3           1%            $0
           Student                 1          0.5%         $4,852
     Commercial Fraud              1          0.5%           $0**


       * This amount represents potential losses for only two of the
       eleven open Medicare investigations. The other nine open
       Medicare investigations have undetermined fraud losses at
       this time.

       ** Potential fraud losses are undetermined at this time.




Railroad Retirement Board – Office of Inspector General                17
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       REPRESENTATIVE INVESTIGATIONS                                     The defendants
                                                                         in RRB
       OCTOBER 1, 2007 – MARCH 31, 2008                                  retirement/
                                                                         survivor and
                                                                         representative
       Retirement/Survivor Benefit and                                   payee fraud
       Representative Payee Investigations                               cases received
                                                                         sentences
                                                                         totaling 27
The Railroad Retirement Act provides retirement benefits for             months in
qualified railroad workers and their families. RRB retirement/survivor   prison and 26
                                                                         years
benefit and representative payee fraud typically involves the theft
                                                                         probation.
and/or fraudulent cashing of retirement benefit checks by someone
other than the authorized RRB annuitant. A second common
retirement benefit scenario involves an individual failing to report
information to the RRB that may disqualify the annuitant from
receiving benefits. During this reporting period, OI obtained eight
convictions for these types of fraud cases. The defendants received
sentences totaling 27 months in prison and 26 years probation.
They were also ordered to pay $596,696 in restitution and $381 in
fines. OI had 4 civil judgements worth $207,009 in civil damages
and penalties.

Examples of cases completed during this reporting period follow.

       RRB Survivor Annuitant Fails to Report
       Disqualifying Marriage
Based upon an agency referral, OI initiated an investigation against
an individual who received a survivor annuity to care for a disabled
child. Subsequent investigation revealed that the annuitant failed to
notify the RRB that she remarried in December 1999. The annuitant
failed to report her remarriage to the agency to prevent her annuity
from being canceled. Her concealment caused the agency to
overpay her $102,726 in benefits. This case was referred to the
United States Attorney’s Office (USAO) for the Eastern District of
Arkansas for criminal prosecution. The USAO filed an one count
misdemeanor information against the annuitant. The U.S. District
Court sentenced the annuitant to three years probation, restitution in
the amount of $102,726 and a special assessment fee of $25.



Railroad Retirement Board – Office of Inspector General             18
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Returned Mail Leads to Six Months Incarceration
       and $132,968 in Restitution

This case was initiated because mail addressed to an RRB annuitant
was returned as undeliverable. A death record search determined
that the annuitant had passed away in September 1991. Subsequent
investigation by OI Special Agents revealed that the spouse failed to
disclose and intentionally concealed the annuitant’s death from the
RRB in order to continue collecting the annuitant’s RRB pension. In
fact, from September 1991 until April 2003 the annuitant’s spouse
caused the RRB to fraudulently pay her $132,968.

During the course of this investigation, it was determined that the
Department of Veteran Affairs (VA) – Office of Inspector General also
had a pending investigation on the RRB annuitant’s spouse. It was
determined that the spouse was not only fraudulently receiving RRB
benefits but was also fraudulently receiving VA benefits. The spouse
continued to collect VA survivor benefits from her first spouse by
knowingly concealing her subsequent marriage to the RRB
beneficiary.

This case was referred to the USAO for the Eastern District of
Pennsylvania. The spouse pled guilty to a two count information (one
count for VA fraud and the second count for RRB fraud) for False
Statements and Theft of Government Funds. The spouse was
sentenced to six months incarceration, three years supervised
probation, a $200 special assessment, $136,948 in restitution to the
VA and $132,968 in restitution to the RRB.

       Failure to Pay Nursing Home Bill Results in OIG
       Referral

A nursing home contacted the local RRB District Office notifying them
that the medical bills for an RRB surviving spouse annuitant had not
been paid for over seven months. It was determined that the
annuitant’s son acted as her representative payee. Subsequent
investigation by OI Special Agents determined that from January
2004 though June 2005, the son used his mother’s annuity for his
own personal use and gain. It was also determined that the son had


Railroad Retirement Board – Office of Inspector General           19
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



attempted to defraud Medicaid by fraudulently requesting an increase
of his mother’s Medicaid benefits. To further this fraud, the son
contacted the Kansas State Medicaid Office claiming that the RRB
had suspended his mother’s benefit checks. During an interview with
an RRB Special Agent and a Kansas State Investigator, the son
confessed to converting his mother’s RRB annuity for his own
personal use.

This case was referred to the Kansas Attorney General’s Office. The
son was charged with an one count felony under Kansas Code, Theft
by Deception. He was sentenced to six months suspended
confinement, 12 months probation and restitution in the amount of
$14,423.

       Annuitant’s Daughter Convicted of Identity Theft

An RRB survivor annuitant contacted her local RRB District Office
and reported that her daughter had stolen her RRB annuity check.
OI’s investigation revealed that the daughter fraudulently collected
and cashed her mother’s annuity check using counterfeit
identification. This case was referred to the Kansas Attorney
General’s Office for prosecution. The daughter entered into a plea
agreement and pled “no contest” to one felony count for Identity
Theft. She was sentenced to 15 months suspended confinement, 60
months probation and restitution in the amount of $1,114.

       Retired Philadelphia Firefighter Fraudulently
       Cashes $147,921 in RRB Benefit Checks

A retired Philadelphia firefighter failed to report his mother’s death
and fraudulently received $147,921 in RRB benefits. A mortality
match between the Social Security Death Index database and the
agency’s database indicated that an RRB beneficiary in current pay
status had actually passed away in November 1991. Subsequent
investigation by OI Special Agents revealed that the annuitant’s son
failed to report her death to the RRB and continued to collect her
benefit checks until August 2006. During an initial interview with OI
Special Agents the son denied cashing the benefit checks. Shortly
after the interview, the son disappeared. After repeated attempts to



Railroad Retirement Board – Office of Inspector General              20
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



contact the son, he eventually contacted OI Special Agents and
confessed. This case was referred to the USAO for Eastern District
of Pennsylvania. The son pled guilty to one count of Conversion of
Government Funds. He received one day imprisonment, a $100
special assessment fee and restitution in the amount of $147,921.

       Daughter of Deceased Annuitant Fraudulently
       Receives $140,937 in Benefits

A Texas woman failed to report her mother’s death to the RRB and
fraudulently received $140,937 in benefits. The Social Security
Death Index database indicated that the RRB annuitant passed away
in April 1997; however, the RRB continued to issue annuity checks in
her name until January 2007. The U.S. Department of Treasury,
Financial Management Center unsuccessfully attempted to reclaim
the RRB annuity funds.

Subsequent investigation by OI Special Agents revealed that from
May 1997 through January 2007 the deceased annuitant’s daughter
continued to withdraw the RRB benefit funds from their joint account.
Soon after the daughter was notified of the reclamation attempt, she
filed for bankruptcy. This case was referred to the USAO for the
Eastern District of Texas. The Assistant United States Attorney filed
a consent judgement in the U.S. Bankruptcy Court asking that the
RRB’s claim not be discharged during the bankruptcy action. The
U.S. Bankruptcy Judge issued an abstract judgement in the amount
of $140,937 plus interest. The daughter signed an entry of consent
judgement acknowledging her liability and agreeing to make monthly
installment payments to the United States. A lien was also placed on
all current and all future real estate owned by the daughter.




Railroad Retirement Board – Office of Inspector General            21
Semiannual Report to the Congress October 1, 2007 – March 31, 2008


                                                                          RRB disability
       Disability Benefit Investigations                                  fraud
                                                                          defendants
OI also conducts fraud investigations relating to the RRB's disability    received
program. These cases typically involve larger financial amounts and       sentences
more sophisticated schemes. Railroad workers who are awarded a            totaling five
disability annuity by the RRB are subject to work restrictions and        months
earnings limitations.                                                     imprisonment
                                                                          and 15.5
                                                                          years
During this reporting period, OI obtained eight convictions and three     probation.
civil judgements in disability fraud cases. The defendants received
sentences totaling five months imprisonment and 15.5 years
probation. They were also ordered to pay $285,188 in restitution,
$2,325 in fines and $178,381 in civil damages/penalties.

Descriptions of several cases follow.

       Railroad Employee Poses as Brother for
       Twenty-Five Years

A railroad employer contacted the U.S. Postal Inspection Service
(USPIS) because they discovered that one of their annuitants had
passed away and someone was still collecting his checks. The
USPIS contacted the OIG and it was determined that the deceased
individual was also still receiving RRB annuity checks.

During the course of the joint investigation between the OIG and the
USPIS, it was discovered that an individual with prior multiple felony
convictions assumed the identity of his brother in order to hide his
convictions and gain railroad employment. He worked under his
brother’s identity for over 25 years. In April 2002, that individual
applied for and received an RRB disability annuity. He also applied
for and received a pension from his railroad employer. The private
railroad employer discovered that the brother, whom they believed
was a former employee and pension annuitant, passed away in May
2002. It was also determined that in addition to the railroad pension
and the RRB disability annuity, the subject individual was also
collecting social security benefits under his own identity. The subject
of the investigation passed away in July 2007 before any judicial
action could be brought against him. However, the RRB funds which



Railroad Retirement Board – Office of Inspector General              22
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



were deposited into his bank account were recouped through a
Seizure Warrant and the agency was made whole.

This case will be featured on Fox News in Chicago during a special
segment highlighting OIG’s fraud work.

       Annuitant Sentenced to Five Months
       Imprisonment

This case was discovered through a wage match with the Social
Security Administration. The wage match indicated that the annuitant
had self-employment wages posted under his social security number
in excess of the allowable amount. The annuitant concealed his
ownership and self-employment as a tour bus operator during several
interviews with RRB representatives. In fact, during one of these
interviews, an RRB representative observed the annuitant answering
business related cell phone calls. OI Special Agents interviewed the
annuitant who admitted to concealing his self-employment so he
could continue to receive RRB disability benefits. This case was
referred to the USAO for the Eastern District of Tennessee for
prosecution. A criminal indictment was filed against the annuitant for
Wire Fraud and False Statements. The United States District Court
for the Eastern District of Tennessee ordered the annuitant to five
months imprisonment, five months home detention, a $200
assessment and restitution in the amount of $57,832 to the RRB.

       Disability Annuitant Ordered to Repay $100,000

OI initiated an investigation of an RRB disability annuitant based
upon a referral from the agency. Subsequent investigation revealed
that during the period of January 2000 through November 2002 the
annuitant earned wages in excess of the allowable amount
established by the Railroad Retirement Act. During an interview with
RRB Special Agents, the annuitant confessed that he had earned
wages above the allowable amount and was not entitled to $57,489 in
RRB disability annuity. This case was referred to the USAO for the
Southern District of New York. The annuitant entered into a
settlement agreement with the USAO agreeing to make restitution in
the amount of $100,000 for violations of the False Claims Act.



Railroad Retirement Board – Office of Inspector General              23
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Unemployment and Sickness Insurance                              During this
       Investigations                                                   reporting
                                                                        period, OI
                                                                        obtained
Unemployment Insurance (UI) and Sickness Insurance (SI) benefit         seven
fraud involves individuals claiming and receiving UI or SI benefits     convictions
while working and receiving wages from an employer, in violation of     and five civil
                                                                        judgements
federal law. OI receives the majority of these cases from the RRB’s
                                                                        for UI and SI
Disability, Sickness and Unemployment Benefits Division as a result     fraud cases.
of information developed from state wage matching programs.
These programs match RRB annuitants with individuals who also
have wages reported to the state during the same period of time
when they are receiving UI or SI benefits from the RRB.

During this reporting period, OI obtained seven convictions and five
civil judgements for UI and SI fraud. Defendants in these cases
received, in the aggregate, 12 days in jail and 17 years probation.
They were also ordered to pay $62,167 in restitution, $2,445 in fines
and $253,260 in civil damages/penalties.

The following is an example of a case completed during this
reporting period.

       Unemployment Claimant Submits Fourteen False
       Statements to the Railroad Retirement Board

OI initiated an investigation of an RRB unemployment insurance
claimant based upon an agency referral. OI determined that the
claimant applied for unemployment benefits on the same days he
was working and being paid by an employer. During the period July
2004 through January 2005 he submitted a total of 14 false claims
when applying for benefits by intentionally not reporting his
employment to the RRB. His actions resulted in the theft of $5,880 in
SI benefits. The case was referred to the USAO for the Eastern
District of New York, Brooklyn. The claimant entered into a
settlement agreement for the violations of the False Claims Act and
agreed to make restitution in the amount of $6,000 to the RRB.




Railroad Retirement Board – Office of Inspector General            24
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



        Civil Enforcement Results                                          U.S. Department
                                                                           of Justice’s
OI also pursues civil actions to obtain judicial orders for the recovery   Affirmative Civil
                                                                           Enforcement
of funds fraudulently obtained by annuitants or claimants. These civil
                                                                           program provides
actions are typically brought under the provisions of the False Claims     a fast track civil
Act. This statute allows the government to recover up to treble            prosecution for
damages as well as $5,500 to $11,000 for each false claim                  some of OI’s fraud
submitted. Some of these civil actions are pursued under the               cases.
Department of Justice’s Affirmative Civil Enforcement (ACE) program
which provides a fast track prosecution mechanism.

During this reporting period, a total of 13 civil judgements were
entered by U.S. District Courts that will result in $659,650 being
repaid to the government.

The ACE program continues to provide an efficient means to
address fraud against RRB programs, particularly where the fraud
losses are below the financial guidelines for criminal prosecution. It
is an effective way to return fraud losses to the RRB’s trust funds
and it also creates a deterrent again future fraud.

The following is an example of an ACE case.

       Annuitant Pays $26,615 Plus a $5,500 Penalty to
       Settle Civil Suit
A Wisconsin annuitant failed to report wages earned in excess of the       Affirmative Civil
allowable limitations. His failure to report these wages caused the        Enforcement
RRB to pay him $26,615 in retirement benefits he was not eligible to       prosecutions are
receive. During an interview with OI Special Agents, the annuitant         an effective way
admitted that he knowingly failed to report this income to the RRB.        to return fraud
                                                                           losses to the
This case was referred to the USAO for the Western District of             RRB’s trust fund
Wisconsin for civil prosecution. The USAO filed a civil complaint for      and they also
violation of the False Claims Act and the annuitant entered into a         create a
                                                                           deterrent against
consent judgement agreeing to repay the RRB $26,615 plus a civil
                                                                           future fraud.
penalty of $5,500.




Railroad Retirement Board – Office of Inspector General              25
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Employee Misconduct                                             OI also
                                                                       investigates
OI also investigate allegations of Railroad Retirement Board           allegations of
                                                                       RRB
employee misconduct.
                                                                       employee
                                                                       misconduct.
       RRB Employee Suspended for Ten Work Days

This investigation of an RRB employee was initiated based upon an
agency referral. This referral indicated that the RRB Intrusion
Detection System had alerted agency personnel to a potential
inappropriate use of RRB computer equipment. Subsequent
investigation by OI Special Agents revealed that an agency employee
utilized his computer to access and view pornographic images.
During an interview with OI Special Agents, the employee admitted to
viewing pornographic material on his agency computer during duty
hours. The employee was suspended for ten working days for
violating agency policy.




Railroad Retirement Board – Office of Inspector General          26
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Railroad Employer Fraud
                                                                           OI investigates
                                                                           allegations of
OI also investigates allegations of fraud by railroad employers and        fraud by
unions when there is an indication that they have submitted false          railroad
reports to the RRB.                                                        employers and
                                                                           unions.
       Railroad Employer Fraudulently Reports
       Compensation under Social Security to Avoid
       Paying Higher RRB Taxes

This case was initiated when OI detected a railroad employer who
had reported little or no employees from 1994 through 2005.
Investigation by OI revealed that the employer submitted fraudulent
service and compensation reports. The employer knowingly failed to
report $977,602 in creditable Tier I and Tier II compensation and
$549,396 of Railroad Unemployment Compensation to the RRB.
Failure to report these funds caused the employer to underpay Tier I
and Tier II taxes by $349,060 and Railroad Unemployment Insurance
Act (RUIA) contributions by $42,703.

During investigation, it was discovered that the employer reported
these employees and $977,602 in compensation to the Social
Security Administration in order to avoid paying higher RRB taxes.

This case was referred to the USAO for the District of Colorado. The
USAO negotiated a settlement agreement with the employer for
repayment of the RUIA contributions in the amount of $21,000. The
case has been referred to the RRB’s Audit and Compliance section
for administrative action to recover the underpaid Tier I taxes.

       Railroad Employee Referred to the U.S.
       Immigration and Customs Enforcement

This case was based upon an agency referral. OI’s investigation
revealed that an individual utilized a fraudulent Permanent Resident
Card and false social security number in order to gain railroad
employment. OI Special Agents referred this case to the U.S.
Immigration and Customs Enforcement Department for further action.



Railroad Retirement Board – Office of Inspector General               27
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



        Hotline Calls
The OIG established its Hotline to receive complaints concerning           The OIG
suspected fraud, waste and abuse in RRB programs and operations.           established
The Hotline provides an open line of communication for individuals to      its Hotline to
report suspected criminal activity, conflicts of interest and              receive
                                                                           complaints
mismanagement/waste of RRB funds. During this reporting period,
                                                                           concerning
OIG updated their Hotline web page to include additional reporting         suspected
guidance making it more user-friendly, including adding information        fraud, waste
regarding anonymous reporting.                                             and abuse in
                                                                           RRB
OIG received 407 Hotline contacts during this reporting period. The        programs and
following table summarizes the subsequent Hotline referrals for the        operations.
period October 1, 2007 through March 31, 2008.


                                                     Number of
                                                  Hotline Referrals
                Referral Activity                       From
                                                  October 1, 2007
                                                  – March 31, 2008
  RRB District or Regional Office                         160
  Other (Misdirected Calls, Follow-up Calls
                                                          158
  to Agents, etc.)
  OIG - Office of Investigations                          39
  Calls With Insufficient Information to Make
                                                          28
  Appropriate Referrals
  Other Federal Agencies                                  9
                                                                           OIG received
  RRB Bureaus                                              6               407 Hotline
                                                                           contacts
  Additional Information is Required Before                                during this
                                                          5
  Disposition can be Determined                                            reporting
  RRB Medicare Carrier/ Durable Medical                                    period.
                                                          2
  Equipment Carrier
  OIG - Office of Audit                                    0
  Local or State Agencies                                  0



Railroad Retirement Board – Office of Inspector General               28
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Legislative & Regulatory Review
                                                                           RRB-OIG is the
                                                                           only federal OIG
The Inspector General Act requires the Inspector General to review
                                                                           that cannot
existing and proposed legislation and regulations relating to the          negotiate a
programs and operations of the agency. It also requires the                service level
Inspector General to make recommendations in the semiannual                agreement with
report concerning the impact of its activities on the economy and          its parent
efficiency of the agency’s administration of its programs and in           agency.
particular on the prevention of fraud and abuse. The OIG has no
comments for this reporting period.

       Reimbursement to the Agency

Current appropriations laws require this office to reimburse the RRB
for indirect costs that include office space, equipment,
communications, supplies, maintenance and administrative services.
This process requires the use of agency and OIG resources for
reconciliation and accounting that could be better utilized for
improving agency operations. RRB-OIG is the only federal Office of
Inspector General that cannot negotiate a service level agreement
with its parent agency. Removal of the current language would
permit negotiation between the RRB and OIG for a more efficient
way to address the issue of support costs.                                 The OIG
                                                                           uncovered a
       Systemic Issue Reporting – Fraud                                    common scheme
                                                                           where RRB
       Resulting From Self-Employment Earnings                             disability and
                                                                           retirement
Previously, the OIG uncovered a common scheme where RRB                    annuitants used
                                                                           certain corporate
disability and retirement annuitants used certain corporate structures
                                                                           structures to hide
to hide their self-employment activities and earnings. The Railroad        their
Retirement Act (RRA) establishes work restrictions and earnings            self-employment
limitations for annuitants to continue to be eligible for retirement and   activities and
disability benefits. Under current procedures and regulations, RRB         earnings.
personnel responsible for adjudicating retirement and disability claims
use earnings information (both wages reported by employer and self-
employment earnings) reported to the Social Security Administration
through the Internal Revenue Service, to make eligibility



Railroad Retirement Board – Office of Inspector General              29
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



determinations. This earnings information can also be used to
                                                                         Based on a
identify annuitants who become ineligible due to excess earnings.        recommendation
Based on the results of its investigative activities, the OIG has        from the OIG,
identified a number of annuitants that have defrauded the RRB’s          the RRB has
retirement and disability programs by utilizing the Subchapter S         made changes
                                                                         to forms and
corporate structure to under-report their self-employment earnings
                                                                         correspondence
and thus fraudulently continue their eligibility for annuity benefits.   requiring
Typically these corporations are fraudulently reporting minimal (below   annuitants to
the earnings limitations established by the RRA) or no wages for the     provide more
annuitants, even though the annuitants are performing all of the work    information
                                                                         when they are
that generates income for these very profitable corporations.
                                                                         engaged in
                                                                         self-employment
Between October 1, 2001 and March 31, 2008 the OI has obtained           work or have an
23 criminal convictions and eight civil judgments for cases involving    affiliation with a
annuitants who operated Subchapter S corporations but failed to          corporation.
report earnings as required. As a result of these cases, the
annuitants were ordered to repay over $2.5 million in benefits that
they were not entitled to receive.

Based on a recommendation from the OIG, the RRB has made
changes to forms and correspondence requiring annuitants to provide
more information when they are engaged in self-employment work or
have an affiliation with a corporation. Recently, agency personnel
notified the OIG that the revised forms are capturing the intended
information and more specifically annuitants are reporting their
corporate ownership/involvement activity.




Railroad Retirement Board – Office of Inspector General             30
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



       Outreach
                                                                          OIG has been
                                                                          focusing attention
Since December 26, 2007, when P.L.110-161 restored OIG’s                  on their renewed
authority to audit and perform investigations relating to the RRB         relationship with
Medicare program, OIG staff members have had the opportunity to           the RRB
attend a variety of Medicare related meetings and to participate in a     Medicare program.
number of Medicare training opportunities.

During February 2008, the Assistant Inspector General for
Investigations and the Deputy Assistant Inspector General for
Investigations traveled to Augusta, Georgia to meet with the RRB
Medicare contractor Palmetto GBA. This meeting provided the
cornerstone for the renewed relationship between OIG and the
Palmetto Benefit Integrity Unit. A solid working relationship with the
RRB Medicare contractor is imperative to the success of the OIG’s
Medicare fraud investigations.

On February 28, 2008, the Executive Office of the United States
Attorneys issued a memorandum to all United States Attorneys’
Offices notifying them of OIG’s renewed involvement in Medicare
fraud cases. The OIG has always enjoyed their working relationship
with the Department of Justice and were pleased to have a national
re-introduction to the Medicare fraud arena.

The Inspector General and the Assistant Inspector General for
Investigations traveled to Baltimore, Maryland on March 8, 2008 to
meet with staff members from the Centers for Medicare and Medicaid        During March
Services in order to discuss the OIG’s involvement in RRB Medicare        2008, the OIG
cases.                                                                    coordinated with
                                                                          a variety of
On March 18, 2008, the United States Attorney’s Office for the            Medicare fraud
Northern District of Illinois provided OI Special Agents with a one day   partners to
training seminar regarding the fundamentals of Medicare fraud. This       provide a
training provided valuable information and insight to the Special         customized
Agents.                                                                   weeklong RRB
                                                                          Medicare fraud
                                                                          training course.
During March 2008, the OIG coordinated with a variety of Medicare
fraud partners to provide a customized weeklong RRB Medicare
fraud training course. On March 31, 2008, representatives from the



Railroad Retirement Board – Office of Inspector General              31
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



Centers for Medicare and Medicaid Services kicked off the training         During this
week with basic Medicare information. The rest of the training             reporting
incorporated speakers from the Department of Health and Human              period, a
Services – Office of Inspector General, the Office of Personnel            Special Agent
                                                                           completed her
Management - Office of Inspector General, the United States
                                                                           detail to the
Attorney’s Office for the Northern District of Illinois and                U.S. House
representatives from the RRB Medicare Carrier Palmetto GBA.                Committee on
                                                                           Appropriations’
During this reporting period, OIG staff members have had the               Surveys and
opportunity to participate in a variety of Medicare related meetings.      Investigations
On one such occasion, the Assistant Inspector General for                  staff.
Investigations was asked to speak regarding OIG’s renewed role in
RRB Medicare fraud. These task forces provide an open forum for
health care fraud related communications and foster a team approach
to health care fraud investigations. Members of the various task
forces include representatives from the Department of Justice, the
Centers for Medicare and Medicaid Services, the Department of
Health and Human Services – Office of Inspector General, the Office
of Personnel Management - Office of Inspector General, the Federal
Bureau of Investigations, Illinois State Police, Illinois Medicaid Fraud
Control Unit and Medicare Program Safeguard Contractors.

During this reporting period, an OI Special Agent completed a detail
to the U.S. House Committee on Appropriations’ Surveys and
Investigations staff. This detail provided the Special Agent with a
wonderful opportunity to assist the Committee and provided a
valuable opportunity to gain a further understanding of the
appropriations process.

On a monthly basis, an OA staff member attends the agency’s
Information Technology Steering Committee meetings. This
committee provides ongoing assessment of all new and existing IT
projects, identifies critical issues and frames them from management
and technical perspectives. The functions of the committee include
strategic information resource management plan review, capital
planning and investment control and enterprise architecture review.
The OA staff member is not a member of the committee but acts as
an OIG representative. As such, she compiles and maintains a file of
committee activities and decisions which are used by OIG staff when
assessing agency programs.


Railroad Retirement Board – Office of Inspector General              32
Semiannual Report to the Congress October 1, 2007 – March 31, 2008



An OA staff member attends the agency’s Information Security and
                                                                          An OA staff
Privacy Committee meetings as an OIG representative. This                 member attends
committee facilitates the implementation and compliance of FISMA          the agency’s
and the E-Government Act. They are also involved in privacy               Information
management compliance for the agency. As the OIG representative,          Security and
she compiles and maintains a file of committee activities and             Privacy
decisions which are used by OIG staff when assessing agency               Committee
programs. Additionally, she is responsible for ensuring that the OIG’s    meetings as
interests are not overlooked when major IT decisions are made by          an OIG
the agency.                                                               representative.


Additionally, an OA staff member represents the OIG at a weekly
status meeting with the agency project managers for the RRB’s
National Toll Free Telephone Service (NTFS). The NTFS project will
provide RRB beneficiaries with a single toll-free automatic call
distribution telephone number. It will upgrade the existing interactive
voice response system and the current frame relay network to a
multi-protocol label switching environment which will be able to carry
voice, data and images via digital communication lines instead of the
current analog system. This project has been contracted under the
General Service Administration’s Network Universal contract.




Railroad Retirement Board – Office of Inspector General              33
APPENDIX A

OIG REPORTS ISSUED

• “Management and Performance Challenges Facing the Railroad
Retirement Board” – October 5, 2007

• Opinion on the financial statements including reports on internal control
and compliance with laws and regulations – November 15, 2007

• Fiscal Year 2007 Financial Statement Audit Letter to Management –
March 6, 2008

• Office of Inspector General Statement of Concern: “National Railroad
Retirement Investment Trust Lack of Provision for Performance Audits” –
March 31, 2008




Railroad Retirement Board – Office of Inspector General             34
APPENDIX B


    INSPECTOR GENERAL ISSUED REPORTS
          WITH QUESTIONED COSTS

                                              Number of
                                             Issued Audit   Amount of   Amount of
                                             Reports with   Questioned Unsupported
                                              Questioned      Costs       Costs
                                                Costs
A. For which no management decision had
been made by October 1, 2007
                                                  0             0           0
B. Which were issued from October 1, 2007
through March 31, 2008
                                                  0             0           0
Subtotal (A + B)                                  0             0           0
C. For which a management decision was
made between October 1, 2007 through              0             0           0
March 31, 2008
(i) dollar value of disallowed costs              0             0           0
(ii) dollar value of costs not disallowed         0             0           0
D. For which no management decision had
been made by March 31, 2008
                                                  0             0           0
E. Report for which no management decision
was made within six months of issuance
                                                  0             0           0




Railroad Retirement Board – Office of Inspector General             35
APPENDIX B CONTINUED

   INSPECTOR GENERAL ISSUED REPORTS WITH
   RECOMMENDATIONS THAT FUNDS BE PUT TO
                BETTER USE


                                            Number of Issued
                                            Audit Reports With
                                                                 Dollar
                                            Recommendations
                                                                 Value
                                            that Funds Be Put
                                              to Better Use
A. For which no management decision had
been made by October 1, 2007
                                                     0             0
B. Which were issued from October 1, 2007
through March 31, 2008
                                                     0             0
C. Subtotal (A + B)
                                                     0             0
(i) dollar value of disallowed costs
                                                     0             0
(ii) dollar value of costs not disallowed
                                                     0             0
D. For which no management decision had
been made by March 31, 2008
                                                     0             0
E. Report for which no management
decision was made within six months of               0             0
issuance




Railroad Retirement Board – Office of Inspector General           36
APPENDIX C

REPORT ON RECEIVABLES, WAIVERS AND
RECOVERIES
The FY1999 appropriations language for this office requires the reporting
of additional information concerning actual collections, offsets and funds
put to better use achieved as a result of Inspector General activities.

OFFICE OF AUDIT
            Funds to be       Funds Agreed
                                                 Receivables                Recoveries to
  Report    put to better          by
                                                 Established    Waivers         Date
                 use           Management
    99-03         $50,850             $50,850         $50,850     $50,490                 $360
    99-14         $83,000            $83,000*         $34,423                        $30,584
    99-16
              $48,000,000         $48,000,000                                 $10,276,000
    99-17     $11,000,000         $11,000,000                                 $1,604,545**
    00-16        $235,000            $235,000                                  $235,846***
    04-06        $821,000            $821,000       $604,429       $5,564        $629,688
    04-10        $400,000            $400,000                                    $761,151
    05-03      $1,800,000          $1,800,000                                  $3,400,884
    05-06         $10,000         $10,000****
    05-07      $1,070,000          $1,070,000
    05-10      $2,600,000          $2,600,000       $311,000
    06-04        $257,000            $257,000
    06-05           $2,100         $2,100*****
    06-06        $200,000            $200,000


* This figure includes monies owed to the agency and overpayments which must be
refunded.

** This figure represents case corrections that resulted in receivables, annuitant
payments, employer tax credits and liabilities.

***This figure represents returned payments credited to debtor accounts.

**** This figure represents funds put to better use that were for a payout of underpaid
Prompt Payment Act interest and accordingly there will not be a related recovery.

*****This figure represents a one time overpayment identified by audit. Management
agreed that this singular case was mishandled under the rules for protected filing date
and decided to consider the annuitant deterred from filing. Accordingly there will not be
a related recovery.



Railroad Retirement Board – Office of Inspector General                              37
APPENDIX C CONTINUED

OFFICE OF INVESTIGATIONS

         Recoveries realized by the RRB resulting from court-ordered
         restitution and civil damages:


                                                    Amount
                           Fiscal Year
                                                   Recovered
                               1999                       $ 855,655
                               2000                       $1,038,134
                               2001                       $ 990,356
                               2002                       $ 785,843
                               2003                       $ 947,876
                               2004                       $ 646,273
                               2005                       $ 844,183
                               2006                       $1,281,680
                               2007                       $1,347,049
                      10/1/07 – 3/31/08                    $799,634




Railroad Retirement Board – Office of Inspector General                38
      APPENDIX D – RRB MANAGEMENT REPORTS

THE INFORMATION CONTAINED IN THIS SECTION
 HAS BEEN PROVIDED BY RRB MANAGEMENT.
     MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
       WITH DISALLOWED COSTS FOR THE SIX MONTH
              PERIOD ENDING MARCH 31, 2008

                                                                         Number of        Disallowed
                                                                        audit reports        costs

A.     Audit reports, with management decisions, on which
       final action had not been taken at the beginning of                   1             $ 2,835*
       the period.

B.     Audit reports on which management decisions were
       made during the period.                                               0               $0

C.     Total audit reports pending final action during the
       period. (A + B)                                                       1             $ 2,835

D.     Audit reports on which final action was taken during
       the period.

       1.     Recoveries

              (a) Collections and offsets                                    0               $0

              (b) Property                                                   0               $0

              (c) Other                                                      0               $0

       2.     Write-offs                                                     0               $0

       3.     Total of 1 and 2                                               0               $0

E.     Audit reports needing final action at the end of
       the period (C - D.3)                                                   1            $2,835


* Identified in Audit Report 05-09, “Review of Internal Control Over Budget Execution.”




Railroad Retirement Board – Office of Inspector General                           39
     MANAGEMENT REPORT ON FINAL ACTION ON
      AUDITS WITH RECOMMENDATIONS TO PUT
      FUNDS TO BETTER USE FOR THE 6-MONTH
          PERIOD ENDING MARCH 31, 2008




                                                                               Number                  Funds to be
                                                                                  of                       put
                                                                             Audit reports             to better use
A.    Audit reports, with management decisions, on
      which final action had not been taken at the
      beginning of the period.                                                      6              $ 5,682,1001

B.    Audit reports on which management decisions
      were made during the period.                                                  0              $        0

C.    Total audit reports pending final action during
      the period. (A + B)                                                           6              $ 5,682,100

D.    Audit reports on which final action was taken
      during the period.

      1.      Value of recommendations implemented
              (completed)                                                           0              $        0

      2.      Value of recommendations that
              management concluded should not or
              could not be implemented (completed)                                  0              $        0

      3.      Total of 1 and 2                                                      0              $        0

E.    Audit reports needing final action at the end of
      the period (C - D.3)                                                          6              $ 5,682,100



      1.   Comprised of the following amounts: $1,800,000 from Audit Report 05-03, “Evaluation
           of the RRB’s Processing of Disability Earnings Cases,” $10,000 from Audit Report 05-
           06, “Review of Compliance with the Prompt Payment Act,” $1,070,000 from Audit
           Report 05-07, “Evaluation of Survivor Annuity Work Deductions at the Railroad
           Retirement Board,” $2,600,000 from Audit Report 05-10, “Retired Employee Work
           Deductions Prior to Full Retirement Age,” $2,100 from Audit Report 06-05, “Review of
           Compliance with Provisions of the Railroad Retirement Act Governing the Initial Award
           of Benefits,” and $200,000 from Audit Report 06-06, “Review of the Termination and
           Suspension of Benefits Paid Under the Railroad Retirement Act.” The amount from
           05-10 was not previously included in this table because it did not track a specific audit
           recommendation, but the Office of Inspector General has reported this as a financial
           accomplishment due to improvements associated with the overall report.




Railroad Retirement Board – Office of Inspector General                                   40
            MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
              OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                          AS OF MARCH 31, 2008
                                                    Disallowed Funds to be put to
Report                                    Date         costs      better use            Reason action not completed
Review of Quality Assurance Activities   1/22/97      NONE          NONE          The remaining recommendation will be
(97-06)                                                                           addressed in conjunction with efforts to
                                                                                  improve calculation and reporting of
                                                                                  performance measures.

Review of Non-Priority                   3/13/97      NONE           NONE         The Office of Programs plans to review
Correspondence Handling (97-09)                                                   and reevaluate its approach to tracking
                                                                                  correspondence in FY08.

Information Systems Security             6/28/00      NONE           NONE         The agency has upgraded its security
(INFOSEC) Report                                                                  capabilities and hopes to close the only
                                                                                  remaining recommendation in FY08.

Fiscal Year 2000 Financial Statement     2/23/01      NONE           NONE         The Bureau of Information Services has
Audit (01-03)                                                                     upgraded help-desk procedures and is
                                                                                  developing reports needed to close the
                                                                                  last open recommendation.

Site Security Assessment for the         7/20/01      NONE           NONE         Information Services will close the last
Office of Inspector (Blackbird #1)                                                open recommendation by completing
                                                                                  migration of all applications to new
                                                                                  servers in FY08.

Security Controls Analysis for the       8/17/01      NONE           NONE         Information Services has closed 35
Office of Inspector General                                                       recommendations and submitted
(Blackbird #2)                                                                    documentation to the OIG on the last 3.

Review of Information Security at the     2/5/02      NONE           NONE         Information Services has closed 20
Railroad Retirement Board (02-04)                                                 recommendations and hopes to close
                                                                                  the remaining 8 in FY08.

Evaluation of the Self-Assessment        12/27/02     NONE           NONE         Information Services obtained contractor
Process for Information System                                                    support for one assessment in FY07 and
Security (03-02)                                                                  has scheduled reviews of other major
                                                                                  systems in FY08.

Inspection of Unverified Records in      3/20/03      NONE           NONE         Programs has reviewed all 20,000
the RRB’s Employment Data                                                         records, with corrective actions and
Maintenance System (03-06)                                                        systems changes targeted for
                                                                                  completion in FY08.

Review of the Railroad Retirement         9/8/03      NONE           NONE         Information Services will establish
Board’s PIN/Password System for On-                                               procedures for the last open item in
Line Authentication (03-09)                                                       conjunction with action taken to close
                                                                                  03-10.

Review of the Systems Development         9/8/03      NONE           NONE         Information Services is using project
Life Cycle for End-User Computing                                                 management software to close the last
(03-10)                                                                           four items in FY08.

Review of Accounts Receivable            7/29/04      NONE           NONE        Sampling procedures currently under
Established Under the Railroad                                                   development by Programs should close
Unemployment Insurance Act (04-06)                                               the last recommendation in FY08.




      Railroad Retirement Board – Office of Inspector General                          41
            MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
              OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                          AS OF MARCH 31, 2008
                                                   Disallowed Funds to be put      Reason action not completed
Report                                    Date        costs    to better use
Review of Mainframe Access Controls      9/7/04      NONE         NONE        Information Services hopes to close
at the Application Level – RRB-                                                the final recommendation during
Developed Applications Controlled by                                           FY08.
ACF2 and IDMS (04-08)

Fiscal Year 2004 Evaluation of           9/30/04     NONE           NONE       Information Systems has closed eight of
Information Security at the Railroad                                           nine recommendations, and plans to
Retirement Board (04-11)                                                       close the last one in FY08.

Review of RRB Compliance with            12/6/04     NONE           NONE       Information Services completed an initial
Federal Laws and Regulations on                                                feasibility study related to competitive
Competitive Sourcing (05-02)                                                   sourcing of some information technology
                                                                               activities but continues to investigate
                                                                               alternate approaches.

Evaluation of the RRB’s Processing of    2/11/05     NONE        $1,800,000    A review of almost 17,000 cases from
Disability Earnings Cases (05-03)                                              2001 indicated most did not require
                                                                               adjustment. Thus far, 194 cases have
                                                                               been adjusted with the remaining 243
                                                                               targeted for completion in FY08.

Review of Internal Control Over the      5/5/05      NONE           NONE       The Chief Actuary is in the process of
Actuarial Projection Process. (05-04)                                          developing a workforce development
                                                                               plan to address the remaining open
                                                                               recommendation in FY08.

Review of Customer Service               5/17/05     NONE           NONE       A major database conversion project
Performance Measures for Timeliness                                            delayed completion of some actions,
of Initial Railroad Retirement Annuity                                         while others dealing with improved
                                                                               performance reporting will be confirmed
Payments. (05-05)
                                                                               as part of financial statement audits.

Review of LAN, LAN Security Scan         6/7/05      NONE           NONE       These contractor-prepared confidential
and Web-based Applications (DSD)                                               reports contained 45 recommendations,
                                                                               with almost two-thirds addressed so far.

Review of Compliance with the            6/15/05     NONE          $10,000     The Bureau of Fiscal Operations closed
Prompt Payment Act (05-06)                                                     eight recommendations, with the last
                                                                               one to be closed in FY08.

Evaluation of Survivor Annuity Work      7/14/05     NONE        $1,070,000    A major database conversion project
Deductions at the Railroad Retirement                                          delayed work on the last open item but it
Board (05-07)                                                                  should be completed in FY08.

Review of Access Controls in the End-    7/18/05     NONE           NONE       Information Services has closed 9 of 15
User Computing General Support                                                 recommendations in this confidential
System (05-08)                                                                 report. The remaining ones are targeted
                                                                               for completion by the end of CY08.

Review of Internal Control Over          9/6/05      $2,835         NONE       Fiscal Operations developed procedures
Budget Execution (05-09)                                                       to close one of the two remaining items
                                                                               in FY08 and submitted documentation
                                                                               on the other one to the OIG, which
                                                                               determined that it will remain open.




      Railroad Retirement Board – Office of Inspector General                        42
     MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
       OVER 12 MONTHS OLD WITH FINAL ACTION PENDING
                   AS OF MARCH 31, 2008

                                                  Disallowed Funds to be put
Report                               Date            costs    to better use     Reason action not completed
Review of Employee Work Deductions 9/19/05          NONE        $2,600,000   Programs completed action that should
Prior to Full Retirement Age (05-10)                                         result in closure of the remaining open
                                                                             recommendation.

Fiscal Year 2005 Evaluation of          9/28/05     NONE          NONE        Information Services is developing
Information Security at the Railroad                                          policies and procedures needed to close
Retirement Board (05-11)                                                      the remaining two items in FY08.

Accuracy and Reliability of GPRA        1/30/06     NONE          NONE        Programs has closed three of the seven
Performance Measures: Timeliness of                                           recommendations, with the remainder
Non-Disability Survivor Annuity                                               delayed by work on a major database
Payments (06-03)                                                              conversion project in FY07.

Review of Compliance with the           4/12/06     NONE          $2,100      Programs staff closed four of the five
Provisions of the Railroad Retirement                                         recommendations. A major database
Act Governing the Initial Award of                                            conversion project delayed action on the
Benefits (06-05)                                                              remaining one, which should be finished
                                                                              by the end of CY08.

Review of the Termination and         5/24/06       NONE         $200,000     A referral system and training should
Suspension of Benefits Paid Under the                                         close the two open recommendations in
Railroad Retirement Act (06-06)                                               FY08.

Evaluation of the Railroad Retirement 8/14/06       NONE          NONE        A scheduled tabletop exercise and
Board’s Disaster Recover Plan (06-08)                                         related activities should enable the
                                                                              agency to close the last item in FY08.

Review of Incident Handling and         8/24/06     NONE          NONE        Information Services implemented two
Reporting at the Railroad Retirement                                          recommendations, with the remaining
Board (06-09)                                                                 eight slated for completion in FY08.

Fiscal Year 2006 Financial Statement    2/9/07      NONE          NONE        The agency has closed 19 of the 20
Audit (07-01)                                                                 recommendations, with action on the
                                                                              final one to be verified as part of the
                                                                              FY07 financial statement audit.

Audit of the DAISY/CHICO Component 3/9/07           NONE          NONE        Programs closed two of the five
Application of the RRA Benefit Pay-                                           recommendations, and plans to close
ment Major Application System (07-02)                                         two more in FY08. The last one depends
                                                                              to some degree on action by another
                                                                              agency relative to Medicare premiums.

Audit of the State Wage Match Data      3/28/07     NONE          NONE        Programs plans to complete action to
Transmission Controls (07-04)                                                 address the six recommendations in
                                                                              FY08.




Railroad Retirement Board – Office of Inspector General                           43
APPENDIX E
REPORTING REQUIREMENTS

INSPECTOR GENERAL REQUIREMENTS...................                      PAGE

Section 4(a)(2) - Review of Legislation and Regulations                      29


Section 5(a)(1) - Significant Problems, Abuses and Deficiencies        3-4, 9-11


Section 5(a)(2) - Recommendations With Respect to Significant
Problems, Abuses and Deficiencies                                        12 -14


Section 5(a)(3) - Prior Significant Recommendations Not Yet
Implemented                                                            3-4, 9-11


Section 5(a)(4) - Matters Referred to Prosecutive Authorities                 7


Section 5(a)(5) - Summary of Report Made to Agency Head                   12-14


Section 5(a)(6) - List of Audit Reports                                      34


Section 5(a)(7) - Summary of Each Significant Report                   3-4, 8-15


Section 5(a)(8) - Statistical Tables on Management Decisions on
Questioned Costs                                                             35


Section 5(a)(9) - Statistical Tables on Management Decisions on
Recommendations That Funds Be Put to Better Use                              36




Railroad Retirement Board – Office of Inspector General           44
APPENDIX E CONTINUED
REPORTING REQUIREMENTS
Inspector General Requirements Continued

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
or Which No Management Decision Has Been Made                                            None


Section 5(a)(11) - Description and Explanation for Any Significant
Revised Management Decision                                                              None


Section 5(a)(12) - Information on Any Significant Management Decisions
With Which the Inspector General Disagrees                                               None



Management Requirements

Section 5(b)(1) - Comments Deemed Appropriate                                Transmittal Letter


Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                     39


Section 5(b)(3) - Statistical Table on Final Action to Put Funds to Better
Use                                                                                         40


Section 5(b)(4) - Statement on Audit Reports With Final
Action Pending                                                                         41 - 43




Railroad Retirement Board – Office of Inspector General              45
APPENDIX F
ACRONYMS

ACE - Affirmative Civil Enforcement


DOJ - Department of Justice


FISMA – Federal Information Security Management Act of 2002


FY - Fiscal Year


GAAP - U.S. Generally Accepted Accounting Principles


GAO – Government Accountability Office


MOU – Memorandum of Understanding


NRRIT – National Railroad Retirement Investment Trust


NTFS - National Toll Free Telephone Service

OA - United States Railroad Retirement Board, Office of Inspector
General - Office of Audit


OI - United States Railroad Retirement Board, Office of Inspector
General - Office of Investigations


OIG - United States Railroad Retirement Board, Office of Inspector
General


OMB - Office of Management and Budget


RRA - Railroad Retirement Act




Railroad Retirement Board – Office of Inspector General              46
APPENDIX F
ACRONYMS CONTINUED

RRB - Railroad Retirement Board


RRSIA – Railroad Retirement Survivors’ Improvement Act


RUIA – Railroad Unemployment Insurance Act


SI - Sickness Insurance


SSA - Social Security Administration


TAS - Taxation Accounting System


UI - Unemployment Insurance


USAO - United States Attorney’s Office


USPIS – United States Postal Inspection Service


VA – United States Department of Veterans Affairs




Railroad Retirement Board – Office of Inspector General   47
APPENDIX G
LEGAL CITATIONS


Federal:
Consolidated Appropriations Act, 2008 – P.L. 110-161

Conversion of Government Funds – 18 U.S.C. § 641

False Claims Act - 31 U.S.C. §§ 3729 - 3733

False Statements – 18 U.S.C. § 1001 et. seq. and 45 U.S.C. § 231(l)

Federal Information Security Management Act of 2002 - 44 U.S.C. §
3531, et. seq.

Inspector General Act of 1978, as amended - 5 U.S.C. App. 3

Inspector General Act Amendments of 1988 - 5 U.S.C. App. 3

Prompt Payment Act – P.L. 97-177, 31 U.S.C. § 3901 et. seq.

Railroad Retirement Act - 45 U.S.C. § 231, et. seq.

Railroad Retirement Act, Penalties - 45 U.S.C. § 231(l)

Railroad Retirement Solvency Act of 1983 - P.L. 98-76

Railroad Unemployment Insurance Act - 45 U.S.C. § 351, et. seq.

Reports Consolidation Act of 2000 – P.L. 106-531, 31 U.S.C. § 3501

Sarbanes – Oxley Act of 2002 – P.L. 107-204, 15 U.S.C. § 7201 et. seq.

Social Security Act – 42 U.S.C. § Ch. 7

Theft of Public Money/Government Funds - 18 U.S.C. § 641

Wire Fraud – 18 U.S.C. § 1343


State Law:
Identity Theft – Kansas State Annotated Code 21-4018(a)

Theft by Deception – Kansas State Annotated Code 21-3701



Railroad Retirement Board – Office of Inspector General           48
                 REPORT

FRAUD, WASTE AND ABUSE




       Call the OIG Hotline:
              1-800-772-4258

      E-mail: Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to persons
who provide information via e-mail. Do not send
  information by e-mail that you do not want a
               third party to read.

    Write: RRB-OIG Hotline Officer
          844 N. Rush Street
     Chicago, Illinois 60611-2092
